  NATIONAL CREDIT UNION ADMINISTRATION
      OFFICE OF INSPECTOR GENERAL


                    OIG REPORT TO OMB ON THE
              NATIONAL CREDIT UNION ADMINISTRATION’S
                       COMPLIANCE WITH THE
                  FEDERAL INFORMATION SECURITY
                        MANAGEMENT ACT
                              2003

               Report #OIG-03-07          September 12, 2003




                               Herbert S. Yolles
                              Inspector General


   Released By:                             Auditor-in-Charge:



William A. DeSarno                          Tammy F. Rapp, CPA, CISA
Deputy Inspector General for Audits         Sr. Information Technology Auditor




                      LIMITED OFFICIAL USE ONLY
      OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
   COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                              Report # OIG-03-07

                                TABLE OF CONTENTS




Section                                                                                  Page
   I       Summary of Results                                                              1

   II      Office of Management & Budget Report Format                                     3

                  A. Overview of FISMA IT Security Reviews                                 3

                  B. Responsibilities of Agency Head                                      5

                  C. Responsibilities of Agency Program Officials and Agency Chief         7
                     Information Officer

Exhibits
   A       Independent Evaluation of the NCUA Information Security Program - 2003

   B       NCUA Financial Statement Audits – 2002
                Executive Summary
                Observations and Recommendations
                Information Technology Detailed Observations

           Note: Exhibits transmitted separately and restricted for official use only.
          OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
       COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                                  Report # OIG-03-07

                             I. SUMMARY OF RESULTS

The Office of Inspector General (OIG) for the National Credit Union Administration
(NCUA) engaged Cotton & Company LLP to conduct an independent evaluation of its
information systems security program and controls for compliance with the Federal
Information Security Management Act (FISMA), Title III of the E-Government Act of
2002, and Office of Management and Budget (OMB) Circular A-130, Appendix III.

The OMB issued Fiscal Year 2003 Guidance on Annual Information Technology
Security Reports on August 7, 2003. This guidance provided clarification to agencies
for implementing, meeting, and reporting FISMA requirements to OMB and the
Congress. This report contains a summary of our evaluation of the NCUA’s information
security program and is presented in the OMB prescribed format.

The OIG issued two reports during the past year that reported on the testing of the
effectiveness of information security and internal controls:

   •     On March 31, 2003, the OIG issued the Financial Statement Audit Report for the
         year ended December 31, 2002. The purpose of this audit was to express an
         opinion on whether the financial statements were fairly presented. In addition,
         the internal control structure was reviewed and an evaluation of compliance with
         laws and regulations was performed as part of the audit. The result of this audit
         was an unqualified opinion, stating that the financial statements were presented
         fairly. Although there were no material weaknesses identified during the review
         of the internal control structures pertinent to financial reporting, eight
         recommendations were made relating to weaknesses in the area of information
         security. Refer to Exhibit B for the Executive Summary, Observations and
         Recommendations, and Detailed Information Technology Observations sections
         of this report.

   •     On September 12, 2003, the OIG issued a report containing an Independent
         Evaluation of the NCUA’s Information Security Program - 2003. The content of
         the independent evaluation report supports the conclusions presented in this
         report. Refer to Exhibit A for the complete independent evaluation.

The Chief Information Officer (CIO) is to be commended for the actions taken to
improve NCUA's information technology (IT) infrastructure. During FY2003, NCUA
accomplished the following:

         •     Completed certification of eight systems
         •     Completed and updated several security plans.

Even with these efforts, the independent evaluation identified significant weaknesses
with the base structure of NCUA’s security program that impacts the security of all



                                              1
       OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
    COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                               Report # OIG-03-07

information residing on the network. Overall, the evaluation determined that NCUA’s
information security program does not fully meet the minimum security requirements of
the Office of Management and Budget Circular A-130, Management of Federal
Resources, Appendix III, Security of Federal Automated Information Resources. Two
significant deficiencies exist in the NCUA IT infrastructure.

First, we noted several weaknesses related to the underlying general support systems
and network. This is significant because every application relies on the security of the
operating system on which it resides. Therefore if the underlying operating systems are
not secure, then the applications themselves cannot be assured of being secure.

Second, we determined that information stored on examiners’ laptop computers is not
adequately secured. Examiners frequently store credit union member personal financial
information (credit union share and loan “downloads”) on their laptop computers. We
noted during our review that the examiner laptops and the information stored on the
laptops were not considered in any system security plan or certification and
accreditation document. In our judgment, this information is quite sensitive and
presents a significant security risk. While we recognize that the likelihood of a security
breach involving this information is uncertain, the potential damage to credit unions and
their members and to NCUA’s reputation is quite significant. Accordingly, we believe
that any subsequent security plan or certification and accreditation document should
consider adequate safeguards for this information.

While we noted other significant weaknesses in IT controls, we believe that the two
conditions described above are the most significant to NCUA, and should be addressed
as soon as possible by NCUA’s Executive Director and CIO.

In October 2002, the CIO identified and reported 167 weaknesses to OMB in the
NCUA’s Plans of Action and Milestones (POA&M) report. Additionally, the independent
evaluation supporting this report identified 12 new weaknesses and made specific
recommendations to address those weaknesses. The table below shows the current
status of the weaknesses, along with the new recommendations identified in the
independent evaluation.

                        Description                       Number of Weaknesses
      Reported in NCUA’s FY 2002 POA&M                            167
      Completed/Implemented Fully During FY 2003                   45*
      Partially Completed/Implemented                              46
      New Weaknesses                                               12
      FY 2002 Weaknesses Awaiting Implementation                   76
      As of August, 2003

*      Although OCIO reported 148 of the 165 weaknesses had been corrected in its July 1,
2003, letter to OMB, we obtained documentation supporting only 45 corrective actions
completed.



                                             2
    OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
 COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                            Report # OIG-03-07

                     II.       OFFICE OF MANAGEMENT & BUDGET
                                     REPORT FORMAT
A. Overview of FISMA IT Security Reviews

In this section, the agency must respond to performance measures and may provide
narrative responses where appropriate.
A.1. Identify the agency’s total IT security spending and each individual major operating division or bureau’s IT security spending
as found in the agency’s FY03 budget enacted. This should include critical infrastructure protection costs that apply to the
protection of government operations and assets. Do not include funding for critical infrastructure protection pertaining to lead
agency responsibilities such as outreach to industry and the public.
                                                                                                FY03 IT Security Spending         ($
Bureau Name                                                                                             in thousnds)
National Credit Union Administration (NCUA)                                                 N/A - OIG response not required
Agency Total



A.2a. Identify the total number of programs and systems in the agency, the total number of systems and programs reviewed by the
program officials and CIOs in FY03, the total number of contractor operations or facilities, and the number of contractor
operations or facilities reviewed in FY03. Additionally, IGs shall also identify the total number of programs, systems, and
contractor operations or facilities that they evaluated in FY03.

                                                                                                                      FY03 Contractor
                                                                        FY03 Programs         FY03 Systems         Operations or Facilities
                                                                      Total  Number   Total            Number      Total         Number
Bureau Name                                                           Number Reviewed Number           Reviewed    Number        Reviewed
NCUA                                                                         1          0         13        12*              4              4
Agency Total                                                                 1          0         13         12              4              4

b. For operations and assets under their control, have agency
program officials and the agency CIO used appropriate methods
(e.g., audits or inspections, agreed upon IT security
requirements for contractor provided services or services
provided by other agencies) to ensure that contractor provided
services or services provided by another agency for their
program and systems are adequately secure and meet the
requirements of FISMA, OMB policy and NIST guidelines,
national security policy, and agency policy?                                   Yes                               No                 X
                                                                      Sufficient due diligence was not performed to ensure services
                                                                      provided by a payroll/personnel contract agency were adequately
c. If yes, what methods are used? If no, please explain why.          secure.
d. Did the agency use the NIST self-assessment guide to
conduct its reviews?                                                          Yes             X                   No
e. If the agency did not use the NIST self-assessment guide and
instead used an agency developed methodology, please confirm
that all elements of the NIST guide were addressed in the agency
methodology.                                                            Yes                              No
f. Provide a brief update on the agency's work to develop an     NCUA is considering adding two systems to its inventory: Travel
inventory of major IT systems.                                   Mgmt System and Corporate Exam System.

* The OCIO reviewed all systems except the infrastructure and 5300.
As part of the independent evaluation, the OIG reviewed the
infrastructure, 5310, TAPS, CHRIS, and ESS. SAP, CLF, and
CDRLF were reviewed as part of the financial statement audit.




                                                          3
    OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
 COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                            Report # OIG-03-07



A.3. Identify all material weakness in policies, procedures, or practices as identified and required to be reported under existing
law in FY03. Identify the number of material weaknesses repeated from FY02, describe each material weakness, and indicate
whether POA&Ms have been developed for all of the material weaknesses.

                                                                                     FY03 Material Weaknesses
                                                                      Total Number                                              POA&Ms
                                                            Total     Repeated from      Identify and Describe Each Material   developed?
Bureau Name                                                Number         FY02                        Weakness                    Y/N
NCUA                                                          2             1           Network not certified                      Y
                                                                                        Sensitive credit union member data
                                                                                        needs better protection                    N
Agency Total




A.4. This question is for IGs only. Please assess whether the agency has
developed, implemented, and is managing an agency-wide plan of action and
milestone process that meets the criteria below. Where appropriate, please
include additional explanation in the column next to each criteria.                     Yes                       No
Agency program officials develop, implement, and manage POA&Ms for every system
that they own and operate (systems that support their programs) that has an IT
security weakness.                                                                                  X
Agency program officials report to the CIO on a regular basis (at least quarterly) on
their remediation progress.                                                                         X
Agency CIO develops, implements, and manages POA&Ms for every system that they
own and operate (systems that support their programs) that has an IT security
weakness.                                                                                           X
The agency CIO centrally tracks and maintains all POA&M activities on at least a
quarterly basis.                                                                                    X
The POA&M is the authoritative agency and IG management tool to identify and
monitor agency actions for correcting information and IT security weaknesses.                       X
System-level POA&Ms are tied directly to the system budget request through the IT
business case as required in OMB budget guidance (Circular A-11) to tie the
justification for IT security funds to the budget process.                                         N/A
Agency IGs are an integral part of the POA&M process and have access to agency
POA&Ms.                                                                                             X

The agency's POA&M process represents a prioritization of agency IT security
weaknesses that ensures that significant IT security weaknesses are addressed in a
timely manner and receive, where necessary, appropriate resources.                                                             X


Although NCUA tracks security weaknesses using the POAM, the POAM process needs to be
better managed:
    o   Recommendations found in the POAM were not prioritized.
    o   Documentation was not available to demonstrate implementation of recommendations.
    o   The POAM indicated some recommendations were implemented where risk based
        decisions were made to not implement the recommendation.




                                                          4
    OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
 COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                            Report # OIG-03-07

B. Responsibilities of Agency Head

In this section, the agency must respond to performance measures and may provide
narrative responses where appropriate to the following questions:


B.1. Identify and describe any specific steps taken by the agency head to clearly and       NCUA Instruction 13500.4, dated Feb 21,
unambiguously set forth FISMA's responsibilities and authorities for the agency CIO         2002, delegates security authority to the CIO
and program officials. Specifically how are such steps implemented and enforced?            and respective designees.
                                                                                            Although managers have discretionary
                                                                                            budget authority over their respective
B.2. Can a major operating component of the agency make an IT investment decision           operations, the final integration of systems is
without review by and concurrence of the agency CIO?                                        approved by the CIO.
                                                                                            The Executive Director (ED) delegated the
B.3. How does the head of the agency ensure that the agency’s information security          oversight of the security program to the
plan is practiced throughout the life cycle of each agency system?                          Deputy ED.
                                                                                            Although the CIO reports to the Executive
B.4. During the reporting period, did the agency head take any specific and direct          Director (ED) on IT matters, the ED has not
actions to oversee the performance of 1) agency program officials and 2) the CIO to         developed a specific requirement for the CIO
verify that such officials are ensuring that security plans are up-to-date and practiced    or program officials to report on the
throughout the lifecycle of each system? Please describe.                                   effectiveness of the security program.


                                                                                            NCUA does not have any critical
B.5. Has the agency integrated its information and information technology security          infrastructure responsibilities. Although
program with its critical infrastructure protection responsibilities, and other security    NCUA has coordinated physical security with
programs (e.g., continuity of operations, and physical and operational security)?           the Div of Procurement and Facilities, we
Please describe.                                                                            made recommendations for improvement.


                                                                                            Since NCUA is a small agency, there is only
B.6. Does the agency have separate staffs devoted to other security programs, are           one position, the Information Security Officer,
such programs under the authority of different agency officials, if so what specific        dedicated full-time to the information security
efforts have been taken by the agency head or other officials to eliminate unnecessary      program. The Div of Procurement and
duplication of overhead costs and ensure that policies and procedures are consistent        Facilities has responsibility for physical
and complimentary across the various programs and disciplines?                              security and coordinates with the OCIO.

B.7. Identification of agency's critical operations and assets (both national critical operations and assets and mission critical) and
the interdependencies and interrelationships of those operations and assets.
a. Has the agency fully identified its national critical operations and assets?                Yes           N/A     No            N/A
b. Has the agency fully identified the interdependencies and interrelationships of those
nationally critical operations and assets?                                                     Yes           N/A     No            N/A
c. Has the agency fully identified its mission critical operations and assets?                 Yes                   No             X
d. Has the agency fully identified the interdependencies and interrelationships of those
mission critical operations and assets?                                                        Yes                   No             X
e. If yes, describe the steps the agency has taken as a result of the review.

                                                                                               The ISO plans to perform a review of
                                                                                               mission critical systems and
f. If no, please explain why.                                                                  interrelationships during the next year.




                                                          5
   OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                           Report # OIG-03-07



B.8. How does the agency head ensure that the agency, including all components, has documented procedures for reporting
security incidents and sharing information regarding common vulnerabilities?
a. Identify and describe the procedures for external reporting to law
enforcement authorities and to the Federal Computer Incident Response        The ISO has responsibility for communicating incidents
Center (FedCIRC).                                                            to FedCIRC.
b. Total number of agency components or bureaus.                                                        1
c. Number of agency components with incident handling and response
capability.                                                                                             1
d. Number of agency components that report to FedCIRC.                                                  1
e. Does the agency and its major components share incident information
with FedCIRC in a timely manner consistent with FedCIRC and OMB
guidance?                                                                                               Y
f. What is the required average time to report to the agency and FedCIRC
following an incident?                                                                           24 hours
g. How does the agency, including the programs within major components, OCIO does not have a policy regarding patches. OCIO
confirm that patches have been tested and installed in a timely manner?  activated Qualys to identify patches, configuration
                                                                         problems, and known vulnerabilities.
h. Is the agency a member of the Patch Authentication and Distribution
Capability operated by FedCIRC?                                          Yes                  X        No

i. If yes, how many active users does the agency have for this service?                             1 - The ISO
j. Has the agency developed and complied with specific configuration
requirements that meet their own needs?                                          Yes                     No                    X
k. Do these configuration requirements address patching of security
vulnerabilities?                                                                 Yes                     No                    X



B.9. Identify by bureau, the number of incidents (e.g., successful and unsuccessful network penetrations, root or user account
compromises, denial of service attacks, website defacing attacks, malicious code and virus, probes and scans, password access)
reported and those reported to FedCIRC or law enforcement.

                                                            Number of incidents reported       Number of incidents reported
Bureau Name            Number of incidents reported         externally to FedCIRC              externally to law enforcement
NCUA                                     1                                   1                                    1




                                                       6
    OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
 COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                            Report # OIG-03-07

C. Responsibilities of Agency Program Officials and Agency Chief Information
Officers

In this section, the agency must respond to performance measures and may provide
narrative responses where appropriate to identify and describe the performance of agency
program officials and the agency CIO in fulfilling their IT security responsibilities.

C.1. Have agency program officials and the agency CIO: 1) assessed the risk to operations and assets under their control; 2)
determined the level of security appropriate to protect such operations and assets; 3) maintained an up-to-date security plan
(that is practiced throughout the life cycle) for each system supporting the operations and assets under their control; and 4)
tested and evaluated security controls and techniques? By each major agency component and aggregated into an agency total,
identify actual performance in FY03 according to the measures and in the format provided below for the number and
percentage of total systems.


                                                                                           g. Number
                                                                                           of systems
                                            d. Number                   f. Number of       for which
                        c. Number of        of systems                  systems with       security                       i. Number of
                        systems             that have                   security           controls                       systems for
                        assessed for        an up-to-     e. Number of control costs       have been       h. Number of   which
                        risk and            date IT       systems       integrated into    tested and      systems with a contingency
                        assigned a level    security      certified and the life cycle     evaluated in    contingency    plans have
a.       b. Total       or risk             plan          accredited    of the system      the last year   plan           been tested
Bureau   Number of       No. of     % of
Name     Systems        Systems   Systems    No.    %      No.       %     No.      %       No.     %       No.      %       No.        %

NCUA               13        11      85%       11   85%          8   62%     13     100%      11    85%        12     92%           1   8%


Agency
Total              13        11      85%       11   85%          8   62%     13     100%       11   85%        12     92%           1    8%


Some of the above statistics are based on input from the ISO and have not been verified. As part
of the independent evaluation and OIG rotational review of systems, the infrastructure and four
applications were reviewed during 2003.


C.2. Identify whether the agency CIO has adequately maintained an agency-wide IT security program and ensured the
effective implementation of the program and evaluated the performance of major agency components.

                                                                                     Has the agency CIO             Do agency POA&Ms
Has the agency CIO                                  How does the agency              appointed a senior             account for all known
maintained an agency-     Did the CIO evaluate the  CIO ensure that bureaus          agency information             agency security
wide IT security          performance of all agency comply with the agency-          security officer per the       weaknesses including all
program? Y/N              bureaus/components? Y/N wide IT security program?          requirements in FISMA?         components?
           N                            N                   Delegation to the ISO                   Y                           N



Although the CIO developed an agency-wide security program, it has not been updated during
the past year to reflect changes in the infrastructure or security weaknesses identified. In
addition, the CIO has not certified its infrastructure or the 5300 system.

The agency POAMs were not updated to reflect IT security weaknesses identified during the
financial statement audit. In addition, the ISO plans to include weaknesses recently identified
during the certification process in the October 2003 POAM.


                                                                 7
    OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
 COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2003
                            Report # OIG-03-07



C.3. Has the agency CIO ensured security training and awareness of all agency employees, including contractors and those
employees with significant IT security responsibilities?

                                                            Agency employees with
Total                               Total number of         significant security
number of   Agency employees that   agency employees        responsibilities that                                                  Total costs
agency      received IT security    with significant IT     received specialized                                                   for providing
employees   training in FY03        security                training                                                               training in
in FY03     Number Percentage       responsibilities        Number         Percentage Briefly describe training provided           FY03
    963       230        24%                  18                  11           61%    Conferences and in-house training                   $4,810



The above statistics were provided by the ISO and have not been verified. However, the OIG
attended training presented by the CIO that included security aspects related to new notebooks
distributed in early 2003.


C.4. Has the agency CIO fully integrated security into the agency’s capital planning and investment control process? Were IT
security requirements and costs reported on every FY05 business case (as well as in the exhibit 53) submitted by the agency to
OMB?

                                      Did the agency program official        Did the agency CIO plan and            Are IT security costs
             Number of business       plan and budget for IT security and    budget for IT security and             reported in the agency's
Bureau       cases submitted to       integrate security into all of their   integrate security into all of their   exhibit 53 for each IT
Name         OMB in FY05              business cases? Y/N                    business cases? Y/N                    investment? Y/N
NCUA                  N/A                             N/A                                    N/A                                 N/A



Although NCUA is not required to complete a capital asset plan with its budget submission to
OMB, NCUA intends to incorporate security with its strategic plan and enterprise architecture.
Since a significant portion of NCUA’s information security is handled by the infrastructure, NCUA
has not taken any steps to integrate security funding at the system level.




                                                            8
